Nos. 20-5398 and 20A30
IN THE SUPREME COURT OF THE UNITED STATES
_________________
LEZMOND CHARLES MITCHELL, PETITIONER
v.
UNITED STATES OF AMERICA
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO PETITION FOR A WRIT
OF CERTIORARI AND TO APPLICATION FOR A STAY OF EXECUTION, via e-mail,
this 20th day of August 2020.
[See Attached Service List]
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 20, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5398
MITCHELL, LEZMOND CHARLES
USA

CELESTE BACCHI
FEDERAL PUBLIC DEFENDER OFFICE
321 EAST 2ND STREET
LOS ANGELES, CA 90012
213-894-1887
CELESTE_BACCHI@FD.ORG

